                   luation




           ACCIDENTAL OFF-DUTY DEATHS IN DOD


Report Number 98-153                           June 15,1998




             Office of the Inspector General
                 Department of Defense
 Additional Information and Copies

 To obtain additional copies of this evaluation report, contact the Secondary
 Reports Distribution Unit of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit
 the Inspector General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions for Audits and Evaluations

 To suggest ideas for or to request future audits or evaluations, contact the
 Planning and Coordination Branch of the Analysis, Planning, and Technical
 Support Directorate at (703) 604-8908 (DSN 6648908) or FAX (703) 604-8932.
 Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

 Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

GAO                 General Accounting Office
                             INSPECTOR     GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                           June 15, 1998

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
               (ENVIRONMENTAL SECURITY)

SUBJECT: Evaluation Report on Accidental Off-Duty Deaths in DOD
         (Report No. 98-153)


        We are providing this evaluation report for your information and use. We
performed the evaluation in response to a request to the Secretary of Defense from
Senator John F. Kerry. We considered management comments on a draft of this report
in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

         We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. Michael A. Joseph, email
< mjoseph@dodig.osd.mil> , or Mr. Timothy J. Tonkovic, email
< ttonkovic@dodig.osd.mil    > , at (757) 766-2703. See Appendix G for the report
distribution. The evaluation team members are listed inside the back cover.




                                 David K. Steensma
                          Deputy Assistant Inspector General
                                    for Auditing
                           Office of the Inspector General, DOD

Report No. 98-153                                                         June 15, 1998
  (Project No. 7LF-5053)


                       Accidental Off-Duty Deaths in DOD


                                  Executive Summary


Introduction. In June 1997, the Boston Globe reported that DOD experienced more
than 29,000 deaths in other than combat or terrorist incidents since 1979. As a result
of the articles, Senator John F. Kerry requested that DOD consider the implication of
the articles on DOD. The Secretary of Defense tasked the Inspector General, DOD, to
begin an evaluation of deaths in DOD, with the exception of those resulting from
aviation accidents, combat, or terrorism.

In 1997, the Washington Headquarters Services reported that about 30,000 active duty
personnel died from nonhostile and nonterrorist events during the 17-year period that
ended on September 30, 1996. The total included about 18,200 deaths from accidents,
5,500 deaths from illness, 4,100 deaths from suicide, 1,700 homicides, and 500 deaths
from undetermined causes.

Our evaluation initially focused on 6,790 of the 18,200 accidental deaths. We did not
evaluate accidental deaths that occurred prior to 1988 because detailed records were not
complete or readily accessible. During our evaluation, we learned that the General
Accounting Office was performing a similar review of accidental deaths that occurred
during on-duty hours. To avoid duplication, we concentrated on the 4,698 accidental
deaths that occurred during off-duty hours from 1988 through 1996. The General
Accounting Office plans to issue its report addressing accidental on-duty deaths in the
summer of 1998.

Evaluation Objectives. The primary evaluation objective was to determine whether
DOD safety programs are effective in reducing off-duty noncombatant deaths.

Evaluation Results. The accidental off-duty death rate in DOD per 100,000
individuals declined 31 percent from 1988 through 1996. The motor vehicle death
rate, the largest category of accidental off-duty deaths, declined by 34 percent for the
same period. While DOD has made progress in reducing the off-duty accidental death
rate, the rate plateaued from 1993 through 1996. For details of the evaluation results,
see Part I.
Summary of Recommendations.         We recommend that the Deputy Under Secretary of
Defense (Environmental Security) prepare a statement for signature by the Secretary of
Defense that emphasizes the DOD commitment to safety, restates the DOD goal of zero
accidents, and places a renewed emphasis on developing other approaches that will
contribute to a reduced accidental death rate.

Management     Comments. The Deputy Under Secretary of Defense (Environmental
Security) concurred with the recommendation to prepare a statement for signature by
the Secretary of Defense. The Deputy Under Secretary stated that the Secretary of
Defense statement should set the tone for DOD accident prevention efforts well into the
future. See Part I for a summary of management comments and Part III for the
complete text of management comments.




                                            ii
Table of Contents


Executive Summary


Part I - Evaluation Results

      Introduction
      Objectives
      Off-Duty Accidental Deaths

Part II - Additional Information

      Appendix A. Evaluation Process
        Scope                                                               16
        Methodology                                                         17
      Appendix B . Summary of Prior Coverage                                19
      Appendix C . DOD Nonhostile Deaths From FY 1980
                   Through FY 1996                                          21
      Appendix D . Safety Resources                                         22
      Appendix E. DOD Off-Duty Accidental Deaths From 1988
                   Through 1996                                             23
      Appendix F. Weighted and Unweighted Motor Vehicle Death Rates         24
      Appendix G . Report Distribution                                      25

Part III - Management Comments

      Deputy Under Secretary of Defense (Environmental Security) Comments   28
Part I - Evaluation Results
Introduction
     In June 1997, the Boston Globe reported that more than 29,000 active duty
     personnel died from nonhostile and nonterrorist events from late 1979 through
     1996. As a result of the articles, Senator John F. Kerry requested that DOD
     consider the Boston Globe articles and their implications for the active duty
     force. The Secretary of Defense tasked the Inspector General, DOD, to
     complete an evaluation of deaths in DOD, with the exception of those resulting
     from aviation accidents, combat, or terrorism.

     On-Duty Accidents. Prior to the start of our evaluation, we learned that the
     General Accounting Office (GAO) was reviewing Class A and Class B on-duty
     mishaps that involved an injury or a death. DOD classifies Class A mishaps as
     accidents that occur when reportable damage is $1 million or more; an aircraft,
     missile, or spacecraft is destroyed; or the accident results in a permanent total
     disability or death. Class B mishaps occur when reportable damage is greater
     than $200,000, but less than $1 million or when an injury results in a permanent
     partial disability. Throughout this report, we use the term accident to refer to
     unplanned events or mishaps that result in a death.

     The term on duty refers to DOD personnel who are physically present at any
     location where they are performing officially assigned work. The term includes
     all activities incident to normal work, such as lunch and rest breaks. All
     compulsory physical training and activities aboard vessels are considered to be
     on duty. GAO plans to issue its report on deaths related to on-duty accidents in
     the summer of 1998.

     Off-Duty Accidents. Because GAO plans to report on on-duty accidents, we
     concentrated our efforts on accidental deaths that occurred during off-duty
     hours. Off-duty accidents include events when DOD personnel are not in a duty
     status, have departed their official duty station, are in a leave status, are
     traveling before or after official duties, or are participating in voluntary sports.

     Accident Related Mortality. Off-duty accidental deaths are caused by events
     such as boating and motor vehicle accidents, drownings, falls, recreational and
     sports related accidents, and weapon related accidents. Socioeconomic status
     and access to medical care are also important contributors to accidental death
     rates; however, the impact is difficult to quantify.
Accidental DOD Deaths. From October 1, 1979, through September 30, 1996,
there were 30,469 DOD active duty deaths worldwide. During that period,
558 deaths were from hostilities and terrorist incidents. Of the remaining
29,911 nonhostile or nonterrorist active duty deaths, 11,732 (39 percent) deaths
resulted from homicide, illness, or suicide. Of the 18,179 accidental deaths,
 11,216 occurred from FY 1980 through FY 1987. Table 1 shows that 6,963
accidental deaths occurred from FY 1988 through FY 1996. See Appendix C
for additional information on DOD deaths.




Incomplete Information. Data prior to FY 1988 was incomplete or unreliable
because casualty records had been destroyed, lost, or transferred to permanent
record holding locations. Additionally, prior to FY 1988, computerized data
bases did not always capture complete information regarding on-duty and
off-duty accidental DOD deaths. Therefore, we reviewed information related to
off-duty accidental deaths from FY 1988 through FY 1996.

We converted FY 1988 through FY 1996 accidental death information to
calendar year information in order to compare DOD off-duty accident
information to the civilian sector. For this report, the term civilian refers to all
non-military individuals, including those employed by DOD. We considered a
g-year span sufficient for identifying trends relating to off-duty accidental death.



                                     3
     After our conversion, there were 6,790 accidental deaths in DOD from 1988
     through 1996. Of the 6,790 deaths, 2,092 were the result of on-duty accidents,
     and the remaining 4,698 were considered to be off-duty accidents. GAO will
     report on the on-duty accidental deaths. Table 2 shows the deaths that resulted
     from on-duty and off-duty accidents and that occurred from 1988 through 1996.




Objectives

     The primary evaluation objective was to determine whether DOD safety
     programs are effective in reducing off-duty noncombat deaths. Another
     announced objective was to review the adequacy of the management control
     program applicable to the primary evaluation objective. We did not review the
     management control program because the majority of information gathered
     during the evaluation was developed and prepared by numerous Military
     Department sources outside the purview of the Service safety centers.
     Additionally, some of the information used in the evaluation was developed by
     Federal Government departments other than DOD.

     See Appendix A for a discussion of the scope and methodology. See
     Appendix B for a summary of prior coverage related to the evaluation
     objectives.




                                         4
            Off-Duty Accidental Deaths
            The accidental off-duty death rate in DOD declined 31 percent per
            100,000 individuals from 1988 through 1996. The motor vehicle
            accidental death rate per 100,000 individuals, the largest category of
            accidental off-duty deaths in DOD, declined 34 percent for the same
            period. Although we could not quantify the relationship of safety
            programs to the decline, we believe that the Services’ safety initiatives
            were a contributing factor in the reduced death rate. While DOD has
            made progress in reducing the accidental off-duty death rate, the rate
            plateaued from 1993 through 1996.



Criteria

     DOD Instruction 5505.10, “Investigation of Noncombatant Fatalities of Active
     Duty Members of the Armed Forces, ” January 31, 1996, requires investigation
     of noncombatant deaths of members of the Armed Forces not medically
     determined to be from natural causes. An Armed Forces medical examiner
     determines the cause of death to ensure there are no suspicious circumstances
     requiring criminal investigation.

     DOD Instruction 1300.18, “Military Personnel Casualty Matter, Policies, and
     Procedures, * December 27, 199 1, establishes policies pertaining to
     DD Form 1300, “Report of Casualty, n which provides the official record of
     death or missing status for a Service member. DD Form 1300 is used as a basis
     for paying monetary benefits, collecting casualty data, and closing active duty
     personnel files.

     DOD Instruction 6055.7, “Mishap Investigation, Reporting, and
     Recordkeeping, n April 10, 1989, provides guidance for investigating, reporting,
     and recordkeeping on accidents that result in DOD property damage or personnel
     injuries or deaths. The Instruction standardizes accident categories,
     classification criteria, and reporting formats and procedures.

     DOD Instruction 6055.4, “Department of Defense Traffic Safety Program, n
     November 22, 1994, provides guidance in administering a comprehensive DOD
     traffic safety program in order to reduce deaths, injuries, and property damage.
     The Instruction states that any military personnel under 26 years of age who
     possess a driver’s license shall be given a minimum of 4 hours of classroom
     instruction in traffic safety designed to establish and reinforce a positive attitude
     toward driving. The Instruction also requires seat belts to be worn by both
     drivers and passengers of a motor vehicle on a DOD installation.


                                           5
Off-Duty Accidental Deaths




Background

      DOD Safety Centers. The Army, the Navy, and the Air Force each operate a
      safety center and the Marine Corps operates a safety division. The safety
      centers and safety division develop safety-related education programs, operating
      policies, and regulatory guidance; manage Service accident prevention
      programs; and provide safety related technical assistance and evaluations to the
      Services. The safety centers and safety division gather information on accidents
      that result in death, loss of worktime injuries, permanent disability, or property
      damage. See Appendix D for a discussion of DOD safety centers and safety
      division.



Accidental Off-Duty Deaths

      Accidental off-duty deaths declined from 37 deaths per 100,000 individuals in
      1988 to 25.6 deaths (31 percent) per 100,000 individuals in 1996. During the
      same period, DOD experienced a 52 percent reduction in the number of total
      off-duty accidental deaths. Figure 1 shows the DOD death rates per 100,000 ’
      individuals and the number of actual DOD deaths that occurred from 1988
      through 1996. In our opinion, Service safety awareness programs and other
      initiatives are factors that contributed to the reduced accidental death rate.




                                           6
                                                              Off-Duty Accidental Deaths



       50
       -_    P               ../......._._/...i_..............~.............................
                                                :...:.x.i:.:.:.:
                                                        .:.:...
                                                          :.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~~~:.:.:.:.:.:.:.~:.:.:.:.~:.:.~~
                                                                                             800
                                                                               ,....
  E    40

  g    30
   3
   a   20

  i     10

         0
                 1988 1989 1990 1991 1992 1993 1994 1995 1996
                                  Calendar Year



Figure 1. DOD Off-Duty Accidental Deaths and Rates per 100,000
Individuals From 1988 Through 1996

Motor vehicle accidents accounted for 3,788 of the 4,698 (81 percent)
accidental off-duty deaths from 1988 through 1996. Motor vehicle deaths
included drivers and passengers and anyone killed by a motor vehicle, such as a
bicyclist, jogger, or pedestrian. Sports-related and recreational-related accidents
were the second leading cause of death and accounted for about 9 percent of the
4,698 deaths. Figure 2 shows the relationship of motor vehicle deaths to other
off-duty accidental deaths. Appendix E summarizes the off-duty deaths for the
g-year period.




                                          7
Off-Duty Accidental Deaths




                                                            Motor Vehicle
                                                                 3,788
                                                             (8 1 percent)




      Figure 2.   Off-Duty Accidental Deaths From 1988 Through 1996



Motor Vehicle Deaths

      Accidental off-duty motor vehicle deaths per 100,000 individuals declined
      34 percent from 1988 through 1996. Specifically, the deaths declined from
      31.3 deaths per 100,000 in 1988 to 20.6 deaths per 100,000 individuals in
      1996. The motor vehicle death rate per 100,000 individuals was less for DOD
      than for the rest of the United States when civilian motor vehicle fatalities were
      weighted by age and gender to match the DOD population. See Appendix A for
      a discussion of the methodology used to standardize the civilian population.
      During that same period, DOD experienced a 54 percent reduction in the total
      number of off-duty motor vehicle deaths. Figure 3 shows the DOD off-duty
      motor vehicle death rates per 100,000 individuals and the number of actual
      motor vehicle deaths that occurred from 1988 through 1996.
                                                    Off-Dutv Accidental Deaths




              1988 1989 1990 1991 1992 1993 1994 1995 1996
                                 Calendar Year
                                           =    Rate per 100,ooO
                                           +    Off-duty motor vehicle deaths


Figure 3. DOD Off-Duty Motor Vehicle Deaths and Rates per 100,000
Individuals From 1988 Through 1996

Comparison of Civilian and DOD ‘lhffic Deaths. Civilian and DOD motor
vehicle deaths declined from 1988 through 1996; however, the DOD rates are
significantly lower than the civilian sector weighted rates. We compared DOD
motor vehicle death statistics to civilian statistics over a g-year time frame. We
limited our comparison of DOD and civilian data to 9 years because some DOD
information prior to 1988 could not be stratified by age and gender. We further
limited our comparison to the 17-year old through 40-year old age group
because about 98 percent of the DOD accidental motor vehicle deaths occur
within that age group. Additionally, the number of DOD personnel in that age
group has remained at a relatively constant 93 percent.

Although our evaluation focused on off-duty accidents, for comparison purposes
with the civilian sector, we included all DOD on-duty and off-duty accidental
motor vehicle deaths that occurred in the continental United States, as well as
overseas locations. We included all DOD motor vehicle deaths to ensure a fair
and accurate comparison was made of all civilian motor vehicle accidents. For
the review period, we added 479 on-duty land vehicle deaths to the
3,788 off-duty motor vehicle deaths.

On-duty land vehicle accidental deaths involved government or privately-owned
motor vehicles primarily designed for over-the-highway operations and
equipment, such as armored carriers and tracked or half-tracked vehicles,
designed primarily for off-the-highway operation. We also included off-road


                                     9
Off-Dutv Accidental Deaths



      recreational vehicle deaths. We calculated civilian accident rates using
      information on motor vehicle deaths that involved a motor vehicle traveling on a
      roadway customarily open to the public in the United States. Figure 4 compares
      the DOD worldwide on-duty and off-duty death rate to the civilian sector
      weighted rates from 1988 through 1996.


               50

          8    40
          0,
          8    30
          -
          & 20

          3    10

                0
                    1988   1989 1990    1991    1992 1993    1994    1995   1996

                                           Calendar Year
                                          111 DOD rate per 100,000
                                          --e Civilian weighted rate per 100,000


      Figure 4. Motor Vehicle Death Rates per 100,000 Individuals From
      1988 Through 1996

      See Appendix F for additional information on weighted civilian and actual DOD
      accidental death rates. While both civilian and DOD motor vehicle deaths have
      declined, DOD rates are significantly lower than the civilian sector weighted
      rates.



Safety Programs Within the Services

       In our opinion, Service safety awareness programs have contributed to the
       significant decline in off-duty DOD deaths. DOD has realized for many years
       that the primary cause of death for active duty personnel are motor vehicle
       accidents. The Services have developed safety programs designed to increase
       the awareness of the risk of driving. Examples of current programs are
       discussed below.




                                          10
                                                    Off-Duty Accidental Deaths



Army. The Army has developed the “Automated Risk Assessment and Control
Options Program For Privately Owned Vehicle Operations” and prepared an
accompanying manual that allows individuals to identify and evaluate traffic
risks and provides incentives for safe driving. The automated program uses a
questionnaire to assist drivers in estimating their risk of having an accident, and
making changes necessary to reduce the identified risks. Commanders and unit
leaders also use the program to identify soldiers who are considered to be at risk
for becoming involved in a motor vehicle accident.

Navy. One Navy program involves flying state police officers out to ships that
are returning from extended deployments. Onboard the ships, the state police
officers conduct briefings to remind sailors about the hazards of driving a motor
vehicle. They also convey to shipboard personnel that driving skills may have
eroded during extended deployments and that it will take a period of time before
they return to their pre-deployment levels of proficiency.

Air Force. Air Force personnel transferred to a new duty station are provided
instruction on local driving conditions. They are made aware of driving in their
new surroundings and the areas where most traffic accidents occur. They are
also shown any driving habits or conditions that are peculiar to their new duty
station.

Marine Corps. Marine Corps installations with a population of more than
500 military and civilian personnel are required to have a safe driving council.
The purpose of the council is to establish and maintain an effective traffic safety
program, evaluate and recommend policies concerning motor vehicles, and
identify and correct traffic accident trends through investigating, reporting, and
analyzing.

Safety Center Initiatives. Representatives from the safety centers and safety
division regularly meet to share information on different motor vehicle safety
programs and to share ideas that could result in reduced motor vehicle death
rates. DOD also established a traffic safety working group that serves as the
technical advisor for all aspects of traffic safety in DOD. The working group
monitors accident rates, interfaces with other DOD and Federal Government
programs, and assists the Services with technical and policy issues relating to
motor vehicle safety.

Other Safety Programs. In addition to traffic safety programs, the Services
have other safety programs geared to Service members’ off-duty time. One of
the safety programs starts Memorial Day weekend and runs through Labor Day
weekend. Summertime is traditionally a popular time for DOD personnel to
travel and is usually a time of the year when increased numbers of personnel
participate in outdoor recreational activities. In addition to motor vehicle



                                     11
Off-Duty Accidental Deaths



      safety, the summer safety program promotes safety related to boating, camping,
      hiking, and swimming. Similar safety programs are developed for all the major
      holidays in DOD.



Safety Publications

      Military safety center publications are another method used to convey safety to
      DOD personnel. The publications contain a wide variety of safety related
      articles and include statistical data and helpful safety hints. The safety centers
      publish about 1.4 million copies of 11 different periodic publications that are
      mailed to units throughout the world. In addition to the safety centers’
      publications, magazines; newspapers; other bulletins; and pamphlets that contain
      safety related articles are published by various major commands, installations,
      organizations, and units.



Risk Management Program

      In 1987, the Army introduced a risk management program. The concept of the
      program has been recognized by the other Services since 1994. The program is
      essentially a five-step process that is usable at any time, at any place, by
      anyone. The five steps in evaluating the safety of a program are: identify
      hazards, assess the hazards, develop controls and make risk decisions,
      implement controls, and supervise and evaluate the results. One of the
      programs in the Army’s overall risk management program is its “Automated
      Risk Assessment and Control Options Program For Privately Owned Vehicle
      Operations. n

       In its “Report of the Task Force on Aviation Safety,” February 1997, the
       Defense Science Board reported that human error was present in over 70 percent
       of all aviation accidents and that risk management will identify hazards and
       minimize the chance of underestimating the risk, or overestimating an
       individual’s ability to cope. Although the causes of off-duty motor vehicle
       accidents were not available, the National Highway Traffic Safety
       Administration has reported that human error, such as driving too fast for
       conditions, failure to stay in the proper lane, fatigue, and inattention, were
       related factors for fatal accidents.

       In our opinion, the risk management process of identifying and controlling
       hazards is applicable to both off-duty activities and on-duty activities. A key
       factor in a successful risk management program is that all levels of personnel



                                           12
                                                        Off-Dutv Accidental Deaths



    are involved in the identification of hazards, the assessments of risks, the
    decisions and implementations of risk controls, and the evaluation of those
    controls.



Continued Emphasis of Safety Programs

    While we recognize that DOD off-duty accidental death rates declined from
    1988 through 1996, the decline plateaued from 1993 to 1996. The safety of
    DOD personnel, both on duty and off duty, is a fundamental component of
    mission readiness. DOD safety programs are intended to eliminate or minimize
    events that can impact mission readiness and the ability of DOD Components to
    carry out their mission. The “FY 1999 to FY 2003 Defense Planning
    Guidance,” July 2, 1997, establishes a near term goal of zero Class A accidents
    with the ultimate goal of zero total accidents. The goals of the Defense
    Planning Guidance and the plateau in the decline of accidental death rates
    require a continued senior level emphasis on existing safety programs and on
    other approaches that may be successful in reducing accidental deaths.



Recommendation and Management Comments

    We recommend that the Deputy Under Secretary of Defense
    (Environmental Security) prepare a statement for signature by the
    Secretary of Defense that emphasizes the DOD commitment to safety. The
    statement should discuss the role of leadership and teamwork in achieving
    the DOD goal of zero total accidents and should emphasize the development
    of other initiatives that could contribute to lowering the DOD accidental
    death rate.

    Management Comments. The Deputy Under Secretary of Defense
    (Environmental Security) concurred, stating that she is preparing and
    coordinating a Department-wide statement for signature by the Secretary of
    Defense.




                                        13
Part II - Additional   Information
Appendix A. Evaluation Process


Scope

    Work Performed. We obtained causes and statistics for DOD deaths from the
    Services and the Washington Headquarters Services, Directorate for Information
    Operations and Reports. We also interviewed personnel involved with safety
    related programs and reviewed policies, procedures, and programs at the Office
    of the Secretary of Defense, the Military Departments, and the safety centers.
    Additionally, we obtained civilian information from the Department of Labor,
    Bureau of Labor Statistics; the Department of Transportation, National Highway
    Traffic Safety Administration; and the Department of Commerce, Bureau of
    Census. Information included civilian traffic death statistics by calendar year,
    that was separated according to age and gender. We did not attempt to collect
    data on motor vehicle death rates by driving record, driving license status,
    educational level, ethnic background, family or marital status, or total miles
    driven because the data elements were not always available in the civilian sector
    or DOD.

    Limitations to Evaluation Scope. We did not evaluate the accuracy of data
    from sources inside or outside DOD. Specifically, we did not evaluate the
    information used in DOD accidental death compilations because the information
    was prepared at numerous locations throughout DOD. We also did not review
    any of the information used to prepare accidental death statistics issued by the
    Department of Commerce, the Department of Labor, or the Department of
    Transportation.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, DOD has
    established 6 DOD-wide corporate level performance objectives and 14 goals for
    meeting those objectives. This report pertains to achievement of the following
    objective and goal.

            Objective: Maintain highly ready joint forces to perform the full spectrum
            of military activities. Goal: Maintain high military personnel and unit
            readiness. (DOD-5.1)

        GAO High Risk Area. The GAO has identified several high risk areas in
        DOD. This report provides coverage of the Defense Infrastructure high risk
        area.




                                           16
                                                        Appendix A. Evaluation Process


    Evaluation Type, Dates and Standards. We performed this economy and
    efficiency evaluation from August 1997 through February 1998 in accordance
    with standards implemented by the Inspector General, DOD. Our scope was
    limited in that we did not include tests of management controls.



Methodology

    Measure of Program Effectiveness. We assessed the effectiveness of DOD
    safety programs in reducing off-duty accidental deaths by analyzing the overall
    off-duty accidentaldeath rates over time and by comparing the motor vehicle
    death rates per 100,000 individuals for DOD and civilian deaths from 1988
    through 1996. We compared the DOD and civilian motor vehicle death rates for
    ages 17 through 40, because 98 percent of all DOD motor vehicle deaths occur
    in this range. We did not attempt to standardize DOD or civilian accidental
    death information for education, ethnic background, or marital status differences
    because DOD or civilian statistical data were not always available.

    Population Differences. The DOD and civilian death rates are derived from
    populations with different distributions by age and gender. When each
    population is segmented by age and gender cells, comparisons between
    corresponding population cells highlight the differences between the population
    distributions. Therefore, any analysis between deaths or death rates from
    dissimilar populations distorts the conclusions obtained from a true comparison
    of similar populations.

    Data Transformation. To compare DOD and civilian death rates, one
    population must be converted to a distribution similar to the other population.
    Therefore, civilian death and population numbers were converted to calculate
    the number of deaths that could be expected if the age and gender dispersion of
    the civilian population was similar to the DOD population. The following
    formula illustrates the conversion method that was applied to each cell.

           DOD populationtimes (civilian fatalities divided by civilian population) =
           expected civilian fatalities under DOD population dispersion

    The ratio of civilian deaths to the civilian population is the proportion of the
    overall population ending in deaths, by each age and gender cell. The expected
    civilian deaths are the anticipated number of deaths that would occur if civilian
    death rates were applied to the DOD population by each age and gender cell.
    The deaths from each cell were totaled by year, divided by the total DOD
    population for the year then multiplied by 100,000 to determine the expected
    civilian death rate per 100,000 individuals. Those calculations were
    independently performed for each year from 1988 through 1996. The purpose
    of independence is to evaluate the death rates as random variables. Statistical


                                             17
Appendix A. Audit Process


      techniques then can be used to measure potential differences in similar
      populations over time. Throughout this report, the converted civilian death
      rates have been referred to as weighted rates.

      Paired Comparison Test. A paired comparison test was used to evaluate the
      difference in death rates between actual DOD death rates and expected civilian
      death rates by year, given civilian death rates applied to the DOD population
      described above. The test indicates whether a statistically significant difference
      exists between the death rates or whether the difference is so small that the rates
      are virtually the same for the g-year period from 1988 through 1996. For this
      test, paired comparison differences are defined as expected civilian minus DOD
      death rates, A positive difference signifies a larger number of civilian fatalities.

      Confidence Interval Statement. The values described below represent the
      estimated difference in fatality rates between DOD and expected civilian
      causalities, from the lower bound to the upper bound at 95 percent confidence.
      This difference is statistically significant if the entire range is on the same side
      of zero. With 95 percent confidence, the difference in fatality rates between
      DOD and civilian populations is at least 7.019 per 100,000 individuals, and
      possibly as much as 9.735 per 100,000 individuals. However, the point
      estimate of 8.377 is the most likely difference between the populations.

      Use of Computer-Processed Data. We relied on computer-processed
      information contained in three data bases at the Services safety centers. We also
      relied on computer-processed worldwide casualty information contained in the
      data base at the Office of the Secretary of Defense, Washington Headquarters
      Services. We did not assess the reliability of the data because of the evaluation
      resources that would have been required to accomplish that effort.

      Contacts During the Evaluation. We visited or contacted organizations within
      and outside DOD. Further details are available upon request.




                                            18
Appendix B. Summary of Prior Coverage


General Accounting Offke

    General Accounting Office (GAO) Report No. NSIAD 94-82 (OSD Case
    No. 9589), “Military Training Deaths: Need to Ensure that Safety Lessons
    Are Learned and Implemented,” May 5,1994. The report states that the
    military is not doing enough to ensure that safety lessons from training-related
    deaths are learned and implemented. The Services did not investigate all
    training-related deaths because they characterized some training-related deaths
    as attributable to natural causes, even when training may have been a
    contributing factor. Additionally, when natural causes were not a factor, the
    Services did not always conduct both legal and safety investigations of fatal
    aviation and non-aviation training accidents. GAO reported that weaknesses
    existed in the Service’s internal controls for conducting legal investigations of
    fatal training accidents, thereby increasing the risk of biased investigations and
    ineffective recommendation resolution. Also, none of the Services had a system
    for capturing and monitoring recommendations made in legal investigation
    reports. GAO recommended that the Services define what constitutes a
     “training related fatality. ” GAO also recommended that the Services amend
    and enforce existing regulations, ensure the independence of legal
    investigations, and track safety recommendations to ensure all appropriate
    actions have been taken. DOD agreed with the report premise that some training
    deaths should be treated as accidents and investigated. DOD did not agree with
    the GAO interpretation of what constitutes a legal investigation.



Inspector General, DOD

    Inspector General, DOD, “Review of Department of Defense Policies and
    Procedures for Death Investigations,” January 26, 19%. The review states
    that DOD had not adopted a standard policy and procedures for death
    investigations and instead relied on the investigations of the Military
    Departments. The Military Departments had effective policies, procedures, and
    training for criminal investigations conducted in death cases. The review
    recommended the issuance of DOD Instruction 5505.10, “Investigation of
    Noncombat Fatalities of Active Duty Members of the Armed Forces. n The




                                        19
Appendix B. Summary of Prior Coverage


      Instruction was published on January 31, 1996. The review also made
      recommendations concerning improvement of procedures. Management
      generally agreed with the recommendations.



Other Reviews

      Department of Health and Human Services Publication No. 96-103,
      “National Mortality Profile of Active Duty Personnel in the U.S. Armed
      Forces 1980-1993,” November 15, 1996. The study was performed to provide
      a detailed summary of the causes of death among the U.S. workforce. The
      study issued by the National Institute for Occupational Safety and Health and
      DOD states that more Armed Forces personnel died on duty and off duty from
      illness, homicide, self-inflicted wounds, and unintentional injuries, than from
      hostile actions between 1980 and 1993, even though the number of deaths
      among Armed Forces personnel declined by 49 percent over the same period.
      The study urged that a concerted civilian and military public health effort
      aggressively address those causes through which intervention and prevention
      strategies could be implemented to save lives. No recommendations were made
      to DOD.




                                         20
Appendix C. DOD Nonhostile Deaths From
N 1980 Through N 1996

   DOD publishes periodic summaries of all active duty deaths by branch of
   Service, cause of death, geographic location, type (hostile and nonhostile), and
   year of occurrence. The DOD Worldwide Casualty System data base maintained
   by the Office of the Secretary of Defense, Washington Headquarters Services,
   has provided this information since 1979. The primary source for securing this
   casualty information is DD Form 1300, “Report of Casualty. n The following
   table shows the total nonhostile deaths, death rates per 100,000 individuals, for
   total nonhostile and accidental deaths, and how the deaths were categorized
   from FY 1980 through FY 1996. The table includes on- and off-duty deaths.
Appendix D. Safety Resources

   Combined budgets for safety centers and safety division have increased from
   $20.9 million in FY 1993 to $23.1 million in FY 1997. This funding is used to
   develop and manage Service accident prevention and education programs,
   develop safety related regulatory guidance and policy, and provide safety related
   technical assistance and evaluations. The amount does not include the cost of
   safety operations that are integral to military commands, installations,
   organizations, and units; and does not include the cost of safety designs and
   equipment that are integral to DOD systems. Because safety awareness training
   is combined with other operational activities at DOD locations, we could not
   determine the amount specifically designated for safety training. Many
   operations at those levels, such as inspections; occupational health clinics; and
   safety “stand downs” and training exercises, are related to safety issues.
   However, they are not necessarily funded as a safety program operation.

   During FY 1997, the safety centers and safety division had a combined staffing
   of 561 people. That combined staffing level consisted of 270 military personnel
   and 291 civilians. It did not include safety personnel at commands,
   installations, organizations, or units. Personnel involved in safety at those
   locations may be dedicated entirely to local safety programs, or they may
   perform the safety function as a collateral duty to their normal job.




                                       22
Appendix E. DOD Off-Duty Accidental Deaths
From 1988 Through 1996

   The Service safety centers and Service safety division collect data on DOD
   accidents. The table shows all accidental off-duty DOD deaths that occurred
   from 1988 through 1996. The table does not include deaths from illnesses,
   homicides, suicides, or undetermined causes.




                                      23
Appendix F. Weighted and Unweighted Motor
Vehicle Death Rates

   Information on the civilian population was obtained from the United States
   Census Bureau. Civilian motor vehicle death information was obtained from
   the National Highway Traffic Safety Administration. Using the civilian
   population and motor vehicle deaths, we computed the accidental death rate per
   100,000 individuals, for 17 through 40 year old personnel. We weighted the
   civilian motor vehicle deaths to reflect the same age and gender mix as the DOD
   population.

   The military population was obtained from the Defense Manpower Data Center;
   and information on military motor vehicle deaths was obtained from the Service
   safety centers and Service safety division. Using the military population and
   motor vehicle deaths by age and gender, we computed the military death rate
   for 17 through 40 year old personnel. The table compares civilian weighted and
   DOD unweighted motor vehicle death rates per 100,000 individuals. The
   methodology used to weight the civilian statistics is explained in Appendix A.




                                      24
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Environmental Security)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          25
Appendix G. Report Distribution


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
   Health, Education, and Human Services

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security


   Honorable John F. Kerry, U.S. Senate




                                            26
Part III - Management Comments
Deputy Under Secretary of Defense
(Environmental Security) Comments

              OFFKE    OF THE UNDER       SECRETARY     OF DEFENSE

                              3000 DEFENSEPENTAOON
                             WASHINGTON. DC 20301-3COO

                                                                     e-2 Mm   me-




    MEMORANDUM FOR DIRECTOR, READINESS AND LOGISTICS SUPPORT (DoDIG)

    SUBJECT: Evaluation Report on Accidental Off-Duty Deaths in DOD
             (ProjectNo. 7LF-5053)


         In your April 10 memorandum, you requested comments on the
    draft of the report that SECDEF asked you to prepare in support
    of Senator Kerry#s reaction to the Boston Globe series on "Deaths
    in the Military." Overall, WC were pleased with the in-depth,
    professional, and impartial review of the Department's safety
    performance.
         Your analysis substantiateduhat our internal oversiqht has
    observed over the years. It is reassuring to validate that the
    Department's leaders and the programs they implement provide
    Service Members a lower risk of accidental death than that which
    threatens similar non-military populations.
         We concur fully in your findings and recommendation.
    Although there is no estimated monetary benefit reported, the
    benefits to the Service Members, to their families and friends,
    and to readiness are self-evident.

         In response to your recommendation,we are preparing and
    coordinating a Department-widestatement for  the SECDEF. In this
    statement, we hope to capture and display the personal policies
    and expectationsthat the SECDEF has spontaneously given voice to
    in a number of different forums. This action should set the tone
    of the DOD accident prevention effosts well into the future.




                                        Deputy Under Secretary of Defense

                               J          (EnvironmentalSecurity)




             Environmental   Security         Defending Ow Furrrtr




                                         28
Evaluation Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this report.

Shelton R. Young
Raymond D. Kidd
Michael A. Joseph
Henry D. Barton
Timothy J. Tonkovic
Douglas L. Jones
Robert J. Hanlon
Brian M. Taylor
Mary J. Gibson
James R. Knight
Carolyn A. Swift
